OFFICE OF INSPECTOR GENERAL


SUMMARY:
AUDIT OF USAID’S
COMPLIANCE WITH EXECUTIVE
ORDER 13536 PROHIBITING
SUPPORT TO AL-SHABAAB IN
SOMALIA

AUDIT REPORT NO. 4-649-13-011-P
SEPTEMBER 17, 2013


PRETORIA, SOUTH AFRICA
This is a summary of our report on the “Audit of USAID’s Compliance With Executive Order
13536 Prohibiting Support to Al-Shabaab in Somalia”.

Persistent food insecurity and widespread violence have plagued the East African nation of
Somalia since 1991. In 2011, a number of factors—including a drought—culminated in a severe
food security crisis, which led the United Nations to declare famine in southern areas of the
country. Some 4 million of 10 million inhabitants were in crisis, with 750,000 of those at risk of
death.

Although the famine was declared over in February 2012, general insecurity and limited access
for humanitarian groups persists. Clashes also continue with al-Shabaab, a militant group
linked to al-Qaeda and designated as a foreign terrorist organization pursuant to 8 U.S. Code
(U.S.C.) 1189 (a). While al-Shabaab has been expelled from many parts of the country, it is still
active in southern and central Somalia. The security situation remains fluid.

The persistent violence in Somalia, combined with piracy offshore and violations of a UN
embargo prompted President Barack Obama to sign Executive Order (EO) 13536 in 2010. The
order blocks the property and related interests of specified people and entities, as well as others
that the Department of the Treasury’s Office of Foreign Assets Control (OFAC) believes should
be included. Al-Shabaab was the only terrorist organization specified in the order.

Anyone violating the order or its regulations1 faces an array of criminal and civil penalties.
Because of these penalties and other applicable statutes and sanctions,2 areas of the country
under al-Shabaab’s control became largely inaccessible to USAID and the international
humanitarian community. However, in the face of the 2011 drought and famine, the U.S.
Government determined that humanitarian assistance for Somalia was necessary. To enable
USAID’s humanitarian response, OFAC granted a license authorizing certain transactions in
Somalia.3 It authorized the Department of State and USAID, as well as their employees, agents,
contractors, and grantees, to provide humanitarian assistance to Somalia through the provision
of funds to:

       (a) the United Nations and its specialized agencies or programs; (b) humanitarian
       organizations having observer status with the [United Nations] General Assembly
       that provide humanitarian assistance; (c) their implementing partners; or (d) other
       humanitarian organizations participating in the current United Nations
       Consolidated Appeal for Somalia.

Despite recent gains, humanitarian needs persist, and the OFAC license remains in effect.




1
  OFAC issued the Somalia Sanctions Regulations (31 Code of Federal Regulations [CFR], Part 551) as
a set of guidelines to implement EO 13536.
2
  The “Material Support” statute (18 U.S. Code [U.S.C.] 2339A) makes it a crime to give material support
to terrorists. The Global Terrorism Sanctions Regulations (31 CFR, Part 594) implement EO 13224, which
declared a more general emergency with respect to “grave acts of terrorism and threats of terrorism
committed by foreign terrorists.” The Foreign Terrorist Organizations Sanctions Regulations (31 CFR,
Part 597) implement provisions of the Antiterrorism and Effective Death Penalty Act of 1996.
3
  OFAC has the authority to grant exemptions to prohibitions either by publishing a general license for
certain categories of transactions or by specific licenses issued on a case-by-case basis.
The Regional Inspector General/Pretoria conducted this audit to determine whether USAID had
adequate controls to ensure compliance with EO 13536 and any other laws and regulations
prohibiting support for al-Shabaab in Somalia, as well as ensure compliance with the conditions
of the OFAC license. The audit concluded that the Agency’s controls were reasonable to comply
with the applicable laws and regulations. USAID recognized the importance of preventing
resources from going to al-Shabaab and implemented controls in an effort to ensure
compliance. However, the audit identified several weaknesses for which we made three
recommendations. Management decisions were acknowledged on all three recommendations
and final action was taken on one.
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
